NO. 19-228

IN THE

UNITED STATES OF AMERICA ex rel.
MICHAEL RAY PERRY,
Petitioner,
v.
HOOKER CREEK ASPHALT & PAVING, LLC, OREGON
MAINLINE PAVING, LLC, J.C. COMPTON
CONTRACTOR, INC., HAP TAYLOR & SONS, INC.,
KNIFE RIVER CORPORATION – NORTHWEST, AND
CENTRAL OREGON REDI-MIX, LLC,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
REPLY BRIEF FOR PETITIONER
JEREMY L. FRIEDMAN
Counsel of Record
2801 Sylhowe Road
Oakland, CA 94602
(510) 530-9060
jlfried@comcast.net

November 2019

DEREK JOHNSON
Johnson, Johnson and
Schaller, PC.
975 Oak Street Suite 1050
Phoenix, AZ 85028
(602) 222-4160

Counsel for Petitioner

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iii
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
REPLY ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

Perry’s qui tam action was dismissed based
on lack of insider knowledge over contractor
invoices, not – as respondents assert – based
on “generalized allegations of substandard
work.” . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

II.

As demonstrated by the treatment of Perry’s
action, lower courts remain splintered on a
Rule 9(b) requirement that relators have
insider knowledge of claims. . . . . . . . . . . . . . 5

III.

Contrary to respondents’ unsupported
contentions, Perry’s petition is a perfect
vehicle to address the judicial fractures. . . . . 9

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

ii
TABLE OF AUTHORITIES
Cases
Ebeid ex rel. United States v. Lungwitz,
616 F.3d 993 (9th Cir. 2010) . . . . . . . . . . . 4, 5
United States ex rel. Chorches v. Am. Med.
Response, Inc., 865 F.3d 71 (2d Cir. 2017) . . . 7
United States ex rel. Duxbury v. Ortho Biotech
Prods., L.P., 579 F.3d 13 (1st Cir. 2009),
cert denied 561 U.S. 1005 (2010) . . . . . . . . . . 9
United States ex rel. Lee v. SmithKline Beecham,
Inc., 245 F.3d 1048 (9th Cir. 2001) . . . . . . . . 7
United States ex rel. Lusby v. Rolls-Royce Corp.,
570 F.3d 849 (7th Cir. 2009) . . . . . . . . . . . . . 9
United States ex rel. Mastej v. Health Mgmt. Assocs.,
Inc., 591 F. App’x 693 (11th Cir. 2014) . . . . . 7
United States ex rel. Prather v. Brookdale Senior
Living Cmtys., Inc., 838 F.3d 750
(6th Cir. 2016) . . . . . . . . . . . . . . . . . . . . . . . 6, 7
United States ex rel. Prather v. Brookdale Senior
Living Cmtys., Inc., 892 F.3d 822
(6th Cir. 2018) . . . . . . . . . . . . . . . . . . . . . . . . 10
United States ex rel. Tamanaha v. Furukawa Am.,
Inc., 445 Fed. App’x 992 (9th Cir. 2011) . . . . 8
United States ex rel. Vatan v. QTC Med. Servs., Inc.,
721 F. App’x 662 (9th Cir. 2018) . . . . . . . . . . 8

iii
Statutes
False Claims Act, 31 U.S.C. §3729(b)(1)(A) . . . . . . . 7
Rules
Federal Rules of Civil Procedure, Rule 9(b) . . passim
Supreme Court Rule 15 . . . . . . . . . . . . . . . . . . . . . . . 3
Other Authorities
Brief for the United States as Amicus Curiae,
Ortho Biotech Prods., L.P. v. United States
ex rel. Duxbury, No. 09-654 (U.S. May 2010) 7
Brief for the United States as Amicus Curiae,
United States ex rel. Nathan v. Takeda Pharm.
N. Am., Inc., No. 12-1249 (U.S. Feb. 2014) . . 9
Scholz, “Forensic Investigation of Moisture-Related
Pavement Failures on Interstate Highways
in Oregon,” Transportation Research Board,
90th Ann. Mt. (2011) . . . . . . . . . . . . . . . . . . . 7

1
INTRODUCTION
Sooner or later, this Court will have to provide
much-needed guidance on application of Rule 9(b) in
the context of the False Claims Act; and, specifically,
whether the qui tam plaintiff (relator) must be an
insider with personal knowledge of the contractor’s
claim submissions to meet gateway particularity
pleading requirements. Over the past decade – while a
steady and continuing flow of petitions for writs of
certiorari have come under the Court’s consideration –
lower courts have splintered over Rule 9(b)
requirements. Entrenched in each circuit’s particular
doctrinal history, there are now divergent alignments
over so-called “strict” and “lenient” approaches, and
even further disharmonies within several circuits.
Without this Court’s intervention, lower courts have
been unable to adopt a consistent approach to relators
who plead facts of fraud with particularity, but plead
facts of claims submissions on “information and belief.”
Contrary to the unsupported arguments of
respondents, Perry’s petition is the best vehicle yet for
the Court to finally address and resolve this important
question of national significance. Perry possesses much
personal knowledge and ample documentation of
respondents’ falsified records and fraudulent conduct.
In his qui tam complaint – reprinted in the appendix –
Perry pleads those facts with particularity, providing
notice to respondents of the precise conduct subject to
challenge, and ensuring the action is neither a “strike
suit” nor a fishing expedition. Yet, Perry’s complaint
was dismissed, because he was not an “insider” and did
not have access to the contractors’ billing records.

2
The tortured procedural history of Perry’s case
perfectly frames the persistent troubling question. As
the lower courts fractured, then splintered over Rule
9(b) standards, Perry’s qui tam action was dismissed,
that dismissal was affirmed (with one circuit judge
concurring separately in the result), then on rehearing
the judgment was reversed (in a 2-1 decision) and
Perry was granted leave to “narrow” his claims, and
then Perry’s “narrowed” complaint was dismissed
again, with the district court judge citing the
dissenting panelist from the prior appeal. After 10
years of pleading, briefing and appeals, Perry’s
complaint – chock full of particularity with respect
non-compliant construction materials, falsified
verification tests and fraudulent quality control
measures – was dismissed based on Perry’s lack of
personal access to billing records.
Until this Court grants review of the question,
intolerable uncertainties will continue to undermine
enforcement of the Act. Relators like Perry – and
attorneys who counsel them – will be left to wonder
whether to take up the qui tam litigation in the
absence of access to invoices. By granting the petition,
unencumbered by the conflicting doctrinal
developments of the lower courts, this Court could
clarify once and for all that relators are not “disabled
from filing suit under the [Act]” because they were
“[un]familiar with the minutiae of [the contractors’]
billing practices. Brief for the United States as Amicus
Curiae at 17, Ortho Biotech Prods., L.P. v. United
States ex rel. Duxbury, No. 09-654 (U.S. May 2010)
(hereinafter “U.S. Duxbury Br.”).

3
REPLY ARGUMENT
I.

Perry’s qui tam action was dismissed based
on lack of insider knowledge over
contractor invoices, not – as respondents
assert – based on “generalized allegations
of substandard work.”

Respondents argue (at 12) that Perry makes
only “generalized allegations of substandard work.” As
stated in the petition(at 9-12), Perry pleads particular
circumstances of fraud on 21 federally-funded Oregon
highway and bridge construction projects – the “who,
what, where, when and how” of substandard
construction, false records and fraudulent quality
control. This includes using substandard concrete from
a third party on one project, while bribing the
contracting official with a high-quality paved home
driveway; employing malfunctioning gauges to achieve
false test results on compaction and water density;
paving over highway portions before verifications could
be performed; achieving compaction artificially by
using rollers smaller than those permitted by
specifications; and other false, misleading or cherrypicked reports of quality control. Perry includes much
evidentiary information, naming specific verification
tests and involved individuals, when known. App. 69a110a.
In their brief in opposition, respondents neither
dispute Perry’s statement of the case, nor address
actual allegations reproduced in the appendix. Under
Rule 15, respondents were obligated to point out any

4
perceived misstatements of the case made by Perry.
They have therefore waived any objections thereto.
Respondents also do not dispute that Perry lost
his case solely because he was not an “insider” to the
contractors’ billing records. Respondents (at 11) argue
that two district court judges and five circuit judges
“each concluded that petitioner’s allegations fail to
plead fraud with particularity,” but this is an overly
simplistic statement of results, not reasoning. No judge
addressed Perry’s particular allegations. In the first
appeal, Judge Fletcher referred generally to them, and
found them sufficient under Rule 9(b); but he held
Perry could not use representative examples to satisfy
Rule 9(b) for claims of systemic fraud.
Three other judges found the complaint failed
under Rule 9(b), not because of generalized allegations
of misconduct, but based upon Perry’s admitted lack of
personal access to contractor invoices. Judge McShane
imposed a non-textual requirement that relators must
be “insiders” with personal knowledge of claim
submissions to state a claim under the Act. He held
“‘insider’ knowledge of the actual claims is critical to
any False Claims Act claim” and he found: “Perry is
not an ‘insider’ within the meaning of the Act.” App.
9a-10a. See also id., at 13a (“It is clear that Perry is
unable to properly plead a False Claims Act claim due
to his status as an ‘outsider’ with no access to the
claims at issue”); 14a, n.2 (“Perry’s lack of direct
knowledge regarding the claims is fatal”).
Judge McShane relied on Judge Callahan’s
dissenting opinion in Perry’s previous appeal. Rather

5
than review particular allegations of misconduct,
Judge Callahan too focused exclusively on allegations
of claims submission on “information and belief,”
finding them admissions by Perry that any amendment
would be futile. App. 19a-20a. Both Judge McShane
and Judge Callahan, in turn, relied upon similar legal
pronouncements by Judge Hogan. See 34a-36a.
Compounding the confusion, the panel on Perry’s
second appeal did not discuss any allegations. Nor did
it explain its reasoning. Contrary to respondents
suggestion (at 20), silence by the panel of appellate
judges neither clarifies the law nor corrects the
erroneous ruling below. At oral argument, respondents
expressly urged the panel to adopt the bright-line rule
that relators must be “insiders.” It is hypocritical for
them to claim now that Perry is foreclosed from raising
that same argument for review before this Court.
II.

As demonstrated by the treatment of
Perry’s action, lower courts remain
splintered on a Rule 9(b) requirement that
relators have insider knowledge of claims.

Respondents reformulate the issue presented –
stripping it of inquiry into “insider” status or personal
knowledge – and argue (at 10, 18), erroneously, “there
is no circuit split.” Their position is undermined by the
parade of petitions that have come under the Court’s
consideration over the past 10 years. Relators,
defendants and the government all agree lower courts
reach “inconsistent conclusions about the precise
manner in which a qui tam relator may satisfy the
requirements of Rule 9(b).” Brief for the United States

6
as Amicus Curiae at 10, United States ex rel. Nathan v.
Takeda Pharm. N. Am., Inc., No. 12-1249 (U.S. Feb.
2014) (hereinafter “U.S. Nathan Br.”).
All sides further agree that the overall body of
appellate precedent creates “substantial uncertainty”
on whether relators must have personal knowledge of
claims submissions and plead specific requests for
payment with particularity. U.S. Duxbury Br. at 16.
Resolution of that uncertainty awaits intervention by
this Court. None of the prior petitions presented an
appropriate vehicle for this Court’s examination; that
is, until Perry’s petition came along.
Respondents gloss over the detailed presentation
of conflicting Rule 9(b) rulings and the prior petitions
for writs of certiorari on the issue. See Petition, at 1517, 19-20, 22-29. Instead, they argue (at 15) that lower
courts have resolved the problem on their own by
adopting a “flexible, case-by-case approach.”
Respondents conflate confusing, conflicting and
sometimes (as in the case here) vague unexplained
rulings by the circuit courts with appropriate rulebound context specific decisions. In light of the
importance of the False Claims Act, this Court
previously has reviewed and resolved several conflicts
among the lower courts regarding its application.
Those cases too sometimes involved flexible, case-bycase evaluations; but lower court guidance was still
required to achieve uniformity in enforcement.
As foretold by Perry, and not addressed or
refuted in the opposition, respondents argue that the
circuits have achieved substantial harmony, but they

7
rely merely upon expressions of hope posited by judges
of one circuit regarding the views of others. See United
States ex rel. Prather v. Brookdale Senior Living
Cmtys., Inc., 838 F.3d 750, 772-773 (6th Cir. 2016);
United States ex rel. Chorches v. Am. Med. Response,
Inc., 865 F.3d 71, 89 (2d Cir. 2017). No circuit court has
expressly walked back its prior Rule 9(b) decisions, and
several continue to develop peculiar caveats that turn
on insider knowledge of claims submissions. See, e.g.,
Prather, 838 F.3d at 769 (Sixth Circuit requires specific
allegations of claims submissions at the pleading stage,
unless the relator is an “insider” with “specific personal
knowledge” of a defendant’s billing practices);
Chorches, 865 F.3d at 86 (although the Second Circuit
permits “information and belief” allegations, “those
who can identify examples of actual claims must do so
at the pleading stage”) (original emphasis); and United
States ex rel. Mastej v. Health Mgmt. Assocs., Inc., 591
F. App’x 693, 704, 707-709 (11th Cir. 2014) (the
Eleventh Circuit permits relator to proceed without
examples of actual claims only when she has “direct,
first-hand knowledge of the defendants’ submission of
false claims gained through her employment”).
Vacillation within the Ninth Circuit parallels
the schism across all circuits. In United States ex rel.
Lee v. SmithKline Beecham, Inc., 245 F.3d 1048, 1052
(9th Cir. 2001), the circuit held “Rule 9(b) may be
relaxed to permit discovery in a limited class of
corporate fraud cases where the evidence of fraud is
within a defendant’s exclusive possession.” In Ebeid ex
rel. United States v. Lungwitz, 616 F.3d 993, 999 (9th
Cir. 2010), however, the circuit rejected the notion that

8
standards might relax “simply [to] facilitate a claim by
an outsider... especially because the [Act] is geared
primarily to encourage insiders to disclose information
necessary to prevent fraud on the government.” In two
unpublished decisions, the Ninth Circuit seemed to
retreat. United States ex rel. Tamanaha v. Furukawa
Am., Inc., 445 Fed. App’x 992, 994 (9th Cir. 2011);
United States ex rel. Vatan v. QTC Med. Servs., Inc.,
721 F. App’x 662, 663-64 (9th Cir. 2018). Perry’s case,
however, did not benefit from such refinements.
The tortured treatment of Perry’s claims in the
Ninth Circuit thus provides a perfect vehicle for review
of judicial splinters across the circuits. Had this Court
granted the writ of certiorari in Duxbury, Nathan or
any of the other petitions cited by Perry, he could have
avoided his 10-year litigation battle over pleadings.
Granting Perry’s petition now could resolve the conflict
once and for all, for the benefit of countless other qui
tam litigants and the lower courts. Because this Court
is not bound by the lower courts’ divergent precedents,
it could readily adopt a rule consistent with the twin
goals of Rule 9(b) that serves the purposes of the False
Claims Act. By finding Perry’s allegations sufficient to
meet those goals, and adopting the view of the
Government expressed in Duxbury and Nathan, the
Court could hold that access to underlying billing
information is not necessary for Perry to state claims
under the False Claims Act. Guidance is needed from
this Court that “outsider” status alone does not bar
commencement of a suit, when the relator otherwise
adequately states the particular circumstances of fraud
on federal funds sufficient to put defendants on notice

9
and protect against unreasonable fishing expeditions.
Only this Court can remedy the confusion among
litigants and lower courts, and Perry’s petition
perfectly frames the issue for the Court to do so.
III.

Contrary to respondents’ unsupported
contentions, Perry’s petition is a perfect
vehicle to address the judicial fractures.

1. Perry’s allegations are clearly sufficient to
meet Rule 9(b) standards articulated by other circuits.
Although respondents contend otherwise in argument,
they do not dispute the underlying fact that authorities
and arguments raised in prior petitions for writs of
certiorari figured prominently in Perry’s oppositions in
the district court and briefs on appeal. Based upon
those authorities, Perry’s qui tam action would not
have been dismissed. See, e.g., United States ex rel.
Duxbury v. Ortho Biotech Prods., L.P., 579 F.3d 13, 30
(1st Cir. 2009) (it was sufficient to identify, “as to each
of the eight medical providers (the who), the illegal
kickbacks (the what), the rough time periods and
locations (the where and when), and the filing of the
false claims themselves”), cert denied 561 U.S. 1005
(2010); United States ex rel. Lusby v. Rolls-Royce Corp.,
570 F.3d 849 (7th Cir. 2009) (relator need not be an
insider at the defendant’s billing department or specify
the details of an actual claim to satisfy Rule 9(b)).
Moreover, in Lusby, the Seventh Circuit held it is not
“essential for a relator to produce the invoices (and
accompanying representations) at the outset of the
suit” and “a pleading [need not] exclude all possibility
of honesty in order to give the particulars of fraud. Id.
at 854-855.

10
2. Defendants argue (at 21-23) that Perry fails to
plead scienter. The Act defines the necessary mental
state as “actual knowledge of the information,” “acts in
deliberate ignorance of the truth or falsity of the
information,” or “acts in reckless disregard of the truth
or falsity of the information.” 31 U.S.C. §3729(b)(1)(A).
Their argument over scienter was not adopted by the
Ninth Circuit or Judge McShane, and it presents no
reason to deny review.
Scienter presents no problem for Perry at any
rate. As detailed in the complaint, ¶¶31-33, App. 52a53a, highway construction contractors working on
federally-funded projects are responsible for conducting
their own quality control, to know the quality of
materials they provide, to detect and report all noncompliance, and to take effective remedial steps on all
occasions when non-compliance is found. Indeed,
respondents’ quality control efforts lead directly to the
certification of compliance with federally-mandated
specifications. In this context, Perry’s allegations of
respondents’ scienter are clearly sufficient.
3. Similarly, respondents’ argument (at 23) on
“materiality” lacks merit. No court below agreed that
additional allegations were needed to establish
materiality, and respondents essentially conceded the
issue by arguing that ODOT administrators had
responsibility to adjust contract payments based upon
compliance with quality control. Moreover,
respondents’ failure to disclose what they knew from
their own quality control makes “the government’s
payment of claims irrelevant to the question of
materiality.” United States ex rel. Prather v. Brookdale

11
Senior Living Cmtys., Inc., 892 F.3d 822, 836-37 (6th
Cir. 2018).
4. Finally, respondents’ argument based on
“plausibility” also fails. This argument was not adopted
by the lower courts, and it presents no obstacle to the
granting of Perry’s petition. Indeed, in the time Perry
has litigated over pleading standards, an independent
expert forensic investigation confirmed that the
premature failures and observable “rutting” in
Oregon’s highways and bridges are linked directly to
substandard construction of the sort witnessed and
documented by Perry. See Scholz, “Forensic
Investigation of Moisture-Related Pavement Failures
on Interstate Highways in Oregon,” Transportation
Research Board, 90th Ann. Mt. (2011) (“Improper tack
coat or failure, permeable dense-graded layers,
stripping, inadequate drainage, and inadequate
compaction of dense-graded material were identified as
the likely root causes of the observed rutting
problems”). The Ninth Circuit granted Perry’s motion
to take judicial notice of the forensic study. App. 1a.
Respondents nevertheless ignore the logical impact of
the study to proof of Perry’s claims. In light of that
investigation, it is safe to find Perry’s claims to be
plausible, and to know that Perry will be able to prove
a causal connection between the substandard
foundation construction materials and the moisturerelated failures of Oregon’s highways.
CONCLUSION
The petition for a writ of certiorari should be
granted.

12
Respectfully submitted,
Jeremy L. Friedman
Counsel of Record
2801 Sylhowe Road
Oakland, CA 94602
(510) 530-9060
jlfried@comcast.net
November 4, 2019

Derek Johnson
Johnson, Johnson and
Schaller, PC.
975 Oak Street, #1050
Phoenix, AZ 85028
(602) 222-4160
Counsel for Petitioner

